The Library of Congress
Office of the Inspector General




             Integrated Support Services
           The Landover Warehouse Internal
               Controls: Progress Made, But
            Additional Improvements Needed
                  Attestation Report No. 2005-AT-904
                                           June 2006
                 UNITED STATES GOVERNMENT                         LIBRARY OF CONGRESS
                 Memorandum                                          Office of the Inspector General


TO:              James H. Billington                                                June 19, 2006
                 The Librarian of Congress
FROM:            Karl W. Schornagel
                 Inspector General


SUBJECT:         The Landover Warehouse Internal Controls:
                 Progress Made, But Additional Improvements Needed
                 Attestation Report No. 2005-AT-904


This transmits our final attestation report on the system of internal controls at the Landover
Warehouse Annex. Internal controls serve as the first line of defense in safeguarding assets and
preventing and detecting errors, fraud, and violations of laws. The attestation was conducted to
evaluate the system of internal controls currently in use plus planned enhancements, and attest to
whether these controls are comparable to the best industry practices. We researched best practices
suggested by the General Services Administration, the Government Accountability Office, and the
International Society of Logistics. Our scope included all controls associated with the receiving,
inventorying, storing, delivering, and discarding of assets at the Warehouse.

We determined that the controls at the Landover Warehouse are not comparable to the best
industry practices. Notwithstanding this finding, we determined that ISS management has taken
actions the past two years or has actions planned to address control weaknesses. If properly
implemented and pursued continuously, these actions should bring about long-term and sustained
improvements in physical inventory controls and inventory record accuracy, as well as physical
security for the warehouse. The Executive Summary begins on page i, and complete findings and
recommendations appear on pages 3 to 14. All recommendations were made to the Integrated
Support Services except for recommendations 7, 8, and 9 which we directed to the Office of
Security and Emergency Preparedness.

Overall, Integrated Support Services and the Office of Security and Emergency Preparedness
agreed with our recommendations. Their responses to our draft report are briefly summarized in
the Executive Summary and in more detail after individual recommendations appearing on pages
4, 5, 6, 8, 10, 11, 12, and 14. The complete responses are included as Appendices B and C.

Based on ISS’ and OSEP’s responses to the draft report, we consider all recommendations
resolved. We appreciate the cooperation and courtesies extended during the audit by the Acting
Head of Logistics, the Assistant Head of Logistics, and all of the Logistics Section staff.


cc:     Deputy Librarian
        Director, Integrated Support Services
        Director, Office of Security and Emergency Preparedness
The Library of Congress                                                                                  Final Report No. 2005-AT-904
Office of the Inspector General                                                                                             June 2006

                                                     TABLE OF CONTENTS

EXECUTIVE SUMMARY .............................................................................................................                i
INTRODUCTION ...........................................................................................................................       1
BACKGROUND .............................................................................................................................       1
OBJECTIVES, SCOPE, AND METHODOLOGY.........................................................................                                    2
FINDINGS AND RECOMMENDATIONS....................................................................................                               3

I.      The Logistics Section Has Not Maintained Physical
        Accountability of Its Inventory but Enhancements Are Planned............................................                               3
        A. The Logistics Section Should Limit the Number of Personnel
            Inputting Data Into the Intellitrack Automated Inventory System..................................                                  3
        Recommendations...................................................................................................................     4
        B. Mitigating Control Procedures Should Ensure
            Integrity of the Inventory Count......................................................................................             4
        Recommendations...................................................................................................................     5
        C. Logistics Needs More Outcome Performance Measures ................................................                                  5
        Recommendation ....................................................................................................................    6

II.     Security Measures Did Not Sufficiently
        Address The Threat of Employee Theft.................................................................................. 6
        Recommendations................................................................................................................... 8

III. Better Separation of Duties and Reconciliations Should
     Improve the Receiving and Shipping Functions .....................................................................                         9
     A. Receiving Function..........................................................................................................            9
     Recommendation ....................................................................................................................       10
     B. Back Orders.....................................................................................................................       10
     Recommendation ....................................................................................................................       11
     C. Shipping Function ...........................................................................................................          11
     Recommendations...................................................................................................................        11
     D. Security Issue ..................................................................................................................      12
     Recommendation ....................................................................................................................       12

IV. Greater Separation of Duties is Necessary to Ensure
    Integrity of the Computers for Learning Program .................................................................. 12
    Recommendations................................................................................................................... 14

CONCLUSIONS.............................................................................................................................. 15

APPENDICES .................................................................................................................................   16
    A. List of Recommendations................................................................................................                 16
    B. Integrated Support Services Response ............................................................................                       17
    C. Office of Security and Emergency Preparedness Response............................................                                      28
The Library of Congress                                                Final Report No. 2005-AT-904
Office of the Inspector General                                                           June 2006

                                  EXECUTIVE SUMMARY

The Logistics Section manages Library assets of serialized personal property that approximate
over 100,000 line items, valued at over $200 million. In addition, the logistics staff receives,
delivers, picks up, and disposes of approximately 15,000 items annually. Recently, the Office of
the Inspector General (OIG) investigated two thefts at the Landover Warehouse Annex. The
investigators suspect staff were involved in both cases. In light of these thefts, we conducted a
review of the Landover Annex Warehouse internal control system to determine whether
inventory controls, management oversight, and physical security were comparable to the best
industry practices.

We determined that the controls are not comparable to the best industry practices. To its credit,
ISS management has taken action the past two years to address control weaknesses. If properly
implemented and pursued continuously, these actions should bring about long-term and sustained
improvements in physical inventory controls and inventory record accuracy, as well as physical
security for the warehouse. Our findings and recommendations are summarized as follows:

The Logistics Section Has Not Maintained Physical Accountability of its Inventory ⎯ For
the two years prior to the thefts, warehouse staff had neither performed inventories of assets
stored at the warehouse, nor maintained a perpetual inventory of the assets. At the time of our
field work, the Logistics Section was inputting inventory data into a newly purchased automated
inventory system, Intellitrack. As an added control, we recommend that ISS management
conduct periodic confirmation counts of the highly susceptible assets and compare the count
against the inventory records. We also recommend limiting access to the Intellitrack system, to
the extent possible, and assigning the Assistant Head of Logistics or a designated alternate
responsibility for performing inventory adjustments (see page 3).

Security Measures Did Not Sufficiently Address the Threat of Employee Theft ⎯ We
concluded that overall security (including infrastructure, security procedures, and guard forces)
needed to be better targeted to address the threat of employee theft. Since the thefts, ISS more
aggressively addressed infrastructure security weaknesses. In addition to the actions ISS has
initiated, we recommend that the Office of Security and Emergency Preparedness consider
assigning the guards exit inspection duties at the main door (see page 6).

Better Separation of Duties and Reconciliations Should Improve the Receiving and
Shipping Functions ⎯ We found that ISS had not established the separation of duties necessary
to ensure inventory integrity. We recommend separating the functions of inputting information
into the Intellitrack inventory system and performing the custodial activities such as receiving,
shipping, and storing physical assets. We also recommend that Logistics periodically reconcile
all back orders with the service units to determine if the vendors filled the orders (see page 9).

Greater Separation of Duties is Necessary to Ensure Integrity of the Computers for
Learning Program ⎯The warehouse staff are responsible for both processing the application
form (request form from charitable organizations participating in the Federal Computers for
Learning Program) and for surplusing the property. To provide better separation of duties, we
recommend that ISS management assign someone not working at the Landover Annex
                                                 i
The Library of Congress                                              Final Report No. 2005-AT-904
Office of the Inspector General                                                         June 2006

responsibility for processing and approving the requests to participate in the Computers for
Learning Program and the requests for surplus computer equipment. We also recommend that
ISS investigate the surplus program operated by Dell Computers as a best practice (see page 12).

Both ISS and OSEP generally agreed with our findings. Their complete responses are included
as Appendices B and C. Our complete list of recommendations is included as Appendix A.




                                               ii
The Library of Congress                                                Final Report No. 2005-AT-904
Office of the Inspector General                                                           June 2006

                                       INTRODUCTION

Integrated Support Services (ISS) is responsible for establishing and maintaining effective
internal control to help ensure that the property received and stored at the warehouse is
safeguarded, and reliable data are maintained to account for the property. Internal control
activities are the policies, procedures, techniques, and mechanisms that help ensure that
management’s directives to mitigate risks are carried out. Control activities are essential for
proper stewardship and accountability of government resources. Recently, the Office of the
Inspector General (OIG) investigated two thefts at the Landover Warehouse Annex. One
involved the theft of new computers and the other surplus computer equipment intended for
charitable donation. The investigators suspect staff were involved in both cases. In light of these
thefts, we conducted an attestation of the internal control system at the Landover Annex
Warehouse.

                                        BACKGROUND

In 1976, the Library signed an occupancy agreement with the General Services Administration
(GSA) to occupy a 216,500 square feet warehouse and light industrial facility leased by GSA in
Landover, MD. The lease expired on January 31, 2006. GSA renegotiated the lease and the
Library signed a new occupancy agreement with GSA for five years beginning February 1, 2006.
The Logistics Section (within ISS) manages 85,000 square feet of the Landover warehouse for
receiving, storing, and disposing of inventory for the Library’s service units. The remaining
space is used for the Library’s collections such as motion pictures, music, serials, manuscripts,
and copyright deposits. A portion of the space has also been designated as an emergency
operations headquarters for Library senior management.

According to the ISS web site, the Logistics Section manages “…Library assets of serialized
personal property that approximate over 100,000 line items, valued at over $200 million. In
addition, the logistics staff receives, delivers, picks up, and disposes of approximately 15,000
items annually.” Inventory is stored at the Landover warehouse until delivered to the Library’s
three Capitol Hill buildings. Normally, inventory is stored for a relatively short period. Most of
this inventory belongs to the Preservation Directorate and the Publishing Office (Library
Services), Facility Design and Construction (ISS), and the Congressional Research Service.

The Library requested funding in its FY 2007 budget for a new 162,043 square feet warehouse to
be built at Fort Meade, MD. The new warehouse will contain storage space, office space for 85
workstations in an alternative operating facility, and space for receiving and administrative
operations. ISS anticipates that the Landover warehouse will be phased out in FY 2010.

The ultimate purpose of logistics management is to provide material where and when needed to
support a given mission at the lowest possible cost. Logistics encompasses the receiving,
handling, storing, inventorying, transporting, order processing, salvaging, and disposing of
materials.




                                                1
The Library of Congress                                                Final Report No. 2005-AT-904
Office of the Inspector General                                                           June 2006

                          OBJECTIVES, SCOPE AND METHODOLGY

We performed this attestation to evaluate the system of internal controls currently in use at the
Landover warehouse plus planned enhancements, and attest to whether the controls are
comparable to the best industry practices as promulgated by GSA, the Government
Accountability Office, and the International Association of Logistical Engineers. Our scope
included all controls associated with the receiving, inventorying, delivering, and discarding of
assets at the warehouse. These control activities include a wide range of diverse activities, such
as approvals, authorizations, verifications, reconciliations, performance reviews, security
activities, and the production of records and documentation.

We conducted two unannounced inspections of the warehouse. We interviewed management
officials within the Logistics Section concerning its security procedures. We reviewed the
current policies and procedures. At the time of our fieldwork, ISS had contracted with IBM to
assist it with revising its procedures. We examined the revised procedures that the contractor
had completed. We observed the receiving and shipping functions at the Landover and Madison
Building loading docks. To better understand the control system, we selected a limited random
sample of the control documents associated with receiving, shipping, and disposal. We verified
whether logistics staff and service unit staff initialed the documents to acknowledge receipt and
confirm the quantity of assets received.

We also surveyed the wide range of available logistics-related research and literature to
understand logistics management principles and determine best industry practices. The literature
provided us with a point of reference against which to compare and contrast the Logistics
Section with the best private sector companies; a practice known as benchmarking.
Benchmarking involves taking a systematic look at other organizations to identify methods,
practices, and processes that help improve performance so that they can be implemented in the
home unit. Additionally, we contacted the logistics staff at the Smithsonian Institution to
compare its procedures with the Library’s.

Our audit was an attestation engagement conducted in accordance with Generally Accepted
Government Auditing Standards issued by the Comptroller General of the United States (the
“Yellow Book”), Library of Congress Regulation (LCR) 1519.1, Audits and Reviews by the
Office of the Inspector General, and attestation standards established by the American Institute
of Certified Public Accountants.




                                                 2
The Library of Congress                                                Final Report No. 2005-AT-904
Office of the Inspector General                                                           June 2006

                             FINDINGS AND RECOMMENDATIONS

I.      The Logistics Section Has Not Maintained Physical
        Accountability of its Inventory but Enhancements are Planned

For the two years prior to the theft, the warehouse staff had not performed regular inventories of
the assets stored at the warehouse nor maintained a perpetual inventory of these assets. Proper
inventory accountability requires that detailed records of acquired inventory be maintained, and
that this inventory be properly reported. Detailed asset records are necessary to help provide for
the physical accountability of inventory and the efficiency and effectiveness of operations. In
our opinion, the weak inventory controls at the Landover warehouse were a reflection of (1) the
low priority management attached to physical inventories, and (2) the Logistics Section viewing
itself as a temporary holding area for assets and relying upon the service units to account for
their assets stored at the warehouse. We found inconsistencies among the service units in their
accounting for assets. For example, CRS maintained accurate records of its assets held at
Landover, while ITS relied upon the Logistics Section to accurately account for its assets. We
believe it is the Logistics Section’s and the service units’ dual responsibility to account for
assets.

Over the past 2½ years, the Logistics Section has initiated actions to improve control over the
assets received and stored at the warehouse. We caution that an improved physical count process
is only one of many corrective actions that will be required to resolve all of the Landover control
deficiencies.

        A. The Logistics Section Should Limit the Number of Personnel
           Inputting Data into the Intellitrack Automated Inventory System

ISS purchased an automated inventory system, Intellitrack, to assist with managing assets.
Intellitrack provides ISS with the ability to maintain a perpetual inventory and better track the
flow of assets. Staff will use hand held devices to input receipts and record shipments.
Management plans to inventory all assets twice a year, compare the totals with the Intellitrack
records, and reconcile any differences. Presently, the Logistics Section is establishing baseline
counts for supplies and other inventories on-hand.

Similar to world-class organizations, Logistics Section management has segmented part of the
inventory based on the dollar amount, criticality to operations, and susceptibility to theft or
fraud. As discussed in our next finding, management has placed these items in a vault. It plans
to count these items more frequently than twice a year.

At the time of our fieldwork, staff were loading inventory counts into the Intellitrack System
using a dedicated computer. We observed that access to this computer had not been restricted.
According to the Assistant Head of Logistics, although all staff had access, only a few were
trained and would know how to make inputs or changes to the inventory records. Best practices
dictate that personnel recording transactions that affect the on-hand quantities should not be
responsible for the physical custody of the inventory or approval of adjustments. Separation
between the duties of recording transactions that result from the physical count and duties of
custody or approval is essential for maintaining the integrity of the physical count process.


                                                 3
The Library of Congress                                                  Final Report No. 2005-AT-904
Office of the Inspector General                                                             June 2006

Personnel recording inventory adjustments to the on-hand balances at leading-edge companies
did not have custodial responsibilities, such as shipping, receiving, and storing, and were not able
to approve significant adjustments to the records. Access to the Intellitrack system should be
limited to the extent possible by separating these duties.

Likewise, only the Assistant Head of Logistics or a designated alternate should be able to
perform inventory adjustments. Although conducting a physical inventory, comparing the count
results to recorded quantities, researching differences, and determining and posting an accurate
adjustment to the on-hand balance seems like a simple exercise, in reality, it is not. There are
many factors that can cause the record of on-hand inventory to differ from the physical quantity
counted, including omission of items from the count, incorrect counts, errors in cutoff, and
improper recording or reconciliation of count results. For this reason, we believe that only the
Assistant Head of Logistics should make the necessary reconciliation adjustments.

Recommendations:

We recommend that the Acting Logistics Section Head:

1.      Provide clear guidance to Logistics Section staff that falsified reporting will not be
        tolerated and that if found, the strongest disciplinary actions would be taken.

2.      Limit access to the Intellitrack system to the extent possible by separating duties.

3.      Assign the Assistant Head of Logistics or a designated alternate responsibility for
        performing inventory adjustments.

Integrated Support Services Response and OIG Comments

ISS agreed with the recommendations. Regarding inventory adjustments, ISS noted that “the
Logistics Section is only accountable for the box, not the contents of the box. The accountability
of the contents of each box must remain the responsibility of the service/support unit customer.”
While we basically agree, we also believe Logistics Services management is responsible for
ensuring the seal on unopened boxes remains intact. Furthermore, whenever Logistics Services
has to open a box to fill an order, it must accept accountability for the individual items in the
box.

        B. Mitigating Control Procedures Should
           Ensure Integrity of the Inventory Count

Due to its limited number of staff, the Logistics Section plans to use staff responsible for
receiving inventory to also conduct the physical inventory count. To best accomplish separation
of duties, the normal job activities of the person performing the physical count should not
include custodial activities such as receiving, shipping, and storing physical assets. However,
the Section has employed other controls that we believe effectively mitigate the recognized risk.
These mitigating control procedures include blind counts, increased supervision, and applying
dual control by having activities performed by two or more people.



                                                  4
The Library of Congress                                               Final Report No. 2005-AT-904
Office of the Inspector General                                                          June 2006

A blind count refers to the performance of a physical inventory count without the knowledge of,
or access to, the on-hand quantity balance in the inventory records. Inventory items are counted
and compared to the on-hand balance in the inventory records. Blind counts offer the greatest
degree of assurance of accurate and reliable counts. If the record on-hand quantity is provided to
the counters, there is a risk that the counters will not actually perform the count. They may
visually look at the inventory, conclude that it agrees with the record on-hand quantity, and
record the on-hand balance amount as the physical count. We found that blind counts were one
of the strongest control measures used at leading-edge companies.

In addition to the ‘blind counts,’ we believe ISS needs to periodically conduct unannounced
inventories of the contents of the vault and compare it with the control records. Similarly, ISS
management should periodically ask the service units what their records indicate is stored at the
warehouse (computer equipment                         and verify this information by an
unannounced physical inventory. In our opinion, unannounced inspections provide the control
needed to ensure integrity.

Recommendations:

We recommend that the ISS Director:

    4. Perform quarterly unannounced counts of the contents of the vault and compare it with
       control records.

    5. Periodically ask the service units what their records indicate is stored at the warehouse
       (computer equipment                        and verify this information by an unannounced
       physical inventory.

Integrated Support Services Response and OIG Comments

ISS agreed with the recommendations. Concerning verifying the physical inventory, ISS noted
that “This process will be much more efficient after all computer equipment           are
migrated into the automated warehouse management system.”

        C. Logistics Needs More Outcome Performance Measures

The Logistics Section maintains statistics to measure its success, however, most of these
statistics are output rather than outcome based: number of orders received, pieces received,
number of pick-ups, and number of deliveries. These statistics tell little about whether the
Section is successfully accomplishing its mission. More meaningful are the statistics it maintains
on the percentage of customers notified that their order was received within 24 hours of delivery
to the warehouse, and the percentage of materials delivered to the customer within the delivery
time goal. These outcome performance measures are similar to what world-class organizations
maintain. We would like to see the Section maintain more outcome measures based on customer
satisfaction. For example, the ratio of customer complaints to the number of items delivered.
Once established, it should benchmark these measures with other similar sized agencies.




                                                5
The Library of Congress                                                 Final Report No. 2005-AT-904
Office of the Inspector General                                                            June 2006

Although the Logistics Section is a year away from completing its first inventory, management
needs to develop inventory performance measures. Leading edge companies use statistics such
as (1) inventory record accuracy goals (98 percent accurate for example), and (2) quantity of
adjustments (this reflects the number of accurate counts). There are multiple ways of calculating
inventory record accuracy; however, the common method is dividing the number of items with
an accurate count (the blind count and the Intellitrack record agree) by the total number of items
or asset classes counted.

Recommendation:

We recommend that the Acting Logistics Section Head:

      6. Establish more outcome performance measures, establish a benchmark, and compare its
         performance with other similarly sized agencies.

Integrated Support Services Response and OIG Comments

ISS agreed with the recommendation. According to ISS, “…responsibility for benchmarking
ISS costs and performance measures of specific support services (including key Logistics
functions) and comparing these with other federal agencies deemed best in government, or with
the best in private industry, has been included in a revised position description for the currently
vacant ISS position Project Management Coordinator (GS-301-14).”

II.      Security Measures Did Not Sufficiently
         Address the Threat of Employee Theft

Because employee theft is hard to detect and prove, it is difficult to determine its extent and to
convince senior management, solely based on a threat, to support effective physical security
measures. However, ISS management reacted to the recent theft and instituted measures to
address control weaknesses. ISS addressed infrastructure security weaknesses by (1) installing
additional cameras to better monitor areas such as the loading dock and the trash dumpster, and
(2) installing fencing around the dumpster. This will limit access and hinder someone planning
to place valuable assets in the dumpster and later retrieving them.




                                                 6
The Library of Congress                                                 Final Report No. 2005-AT-904
Office of the Inspector General                                                            June 2006

Figure 1. The Landover Warehouse dumpster taken from inside the warehouse. It is easily accessed
from inside the warehouse and the outside parking lot.




Moreover, the Assistant Section Head restricted access to the warehouse area by personnel from
other Library offices working at Landover. He accomplished this by limiting access (via the card
reader access system) to only supervisors from the other Library offices working in the Landover
Annex. Finally, he more effectively restricted access to assets highly susceptible to theft by
placing them in a locked vault. We confirmed that laptops, PDAs, and other susceptible assets
are stored in the vault area in the warehouse with access limited to the Assistant Head of
Logistics and the Warehouse Foreman. These controlled items are subject to more frequent
physical inventories than uncontrolled items. Plans call for installing fencing in several
warehouse aisles to better restrict access to computer equipment – both new and surplused
(Management informed us at the Exit Conference that this was finalized on January 24, 2006).
Both of these actions are best industry practices. Determining whether an asset is pilferable is
pivotal in establishing the degree of oversight exercised by the control system.

Figure 2. The entry to the new vault via the            Figure 3. The inside of the new vault with
warehouse.                                              boxes of new computers.




Regarding security procedures, the Logistics Section is in the process of revising its procedures
to better address security weaknesses. Steps taken include (1) requiring staff to exit only by the
front door, (2) assigning two staff members to receive and dispose of computer equipment and


                                                 7
The Library of Congress                                                Final Report No. 2005-AT-904
Office of the Inspector General                                                           June 2006

other assets more susceptible to theft, and (3) performing walk-through inspections. Camera and
surveillance systems are good, but something as simple and inexpensive as unscheduled walk-
throughs are also very effective theft deterrents. Unpredictability is the key. Warehouse
supervisors should conduct their walk-throughs frequently and without a fixed schedule.

We found conflicting data as to whether the contract guards performed regular walk-throughs
and whether the walk-throughs focused on protecting the inventory. During one of our
unannounced visits, we observed the contract guard inspecting the entire warehouse complex.
However, warehouse staff we interviewed stated that the contract guards did not regularly
conduct inspections, and the primary purpose was to turn on the lights and check the doors early
in the morning.

Notwithstanding the measures taken, more needs to be done to emulate industry best practices.
The Landover warehouse lacked any type of exit inspections. The contract guards we
interviewed said they stopped anyone leaving with a large bag, but generally did not inspect staff
when entering or exiting.

The revised warehouse procedures require all staff to exit by the main door. If followed, this
provides better control combined with the recommended exit inspections. The Assistant Head of
Logistics ensures staff follow this rule by locking all other exits (the door can be opened but the
fire alarm will sound) and by making walk-throughs at the end of the workday. Another security
control used by the military and other security conscience companies is conducting random
inspections of employees’ vehicles.

We commend the equipment enhancements taken such as the use of the vault room and plans to
add fencing to limit access to several of the warehouse aisles. Additional equipment solutions
are possible, as well. Such items as security mirrors permit visibility into closed areas, around
corners, and into hallways. There are other products that can lock a pallet rack bay or a shelving
unit down, allowing the combination of security and storage into the same process. Security-
focused storage equipment is not the sole answer, of course, but its role is often understated.

Recommendations:

We recommend that the Office of Security and Emergency Preparedness:

7.      Post a check sheet at several strategic points in the warehouse. The contract guard should
        initial and post the date and time for each inspection.

8.      Consider the additional cost of assigning inspection duties to the guards at the main door.

9.      Consider the feasibility of conducting random inspections of vehicles. This will require
        negotiations with the union.

Furthermore, we recommend that the Acting Logistics Section Head:

10.     Place the Logistics staff sign-in/out register at the Landover Annex front door.



                                                 8
The Library of Congress                                                             Final Report No. 2005-AT-904
Office of the Inspector General                                                                        June 2006

Office of Security and Emergency Preparedness and
Integrated Support Services Responses and OIG Comments

OSEP agreed with the recommendations. Concerning the feasibility of conducting random
inspections of vehicles, OSEP replied that it would coordinate this proposal with the Office of
the General Counsel, Human Resources Services’ Office of Workforce Management, and the
CEO of Securiguard.

ISS disagreed with recommendation 10 stating that many LOC staff members at Landover are
not Logistcis staff members and therefore it is not Logistics’ responsibility to account for these
staff. We agree. Our recommendation was intended for the Logistics staff, not all staff working
at Landover. The primary objective of the recommendation was to act as a control to ensure all
staff exit via the front door and are subject to the exit check we have recommended. Since we
believe all staff should be subject to exit inspection, we will contact the management of the other
units with staff stationed at Landover to recommend that they also sign-in/out at the front door.

III.      Better Separation of Duties and Reconciliations
          Should Improve the Receiving and Shipping Functions

Receiving and shipping in the warehouse bring the greatest opportunity for error, as well as for
pilferage and theft. Because accidental or deliberate discrepancies will occur, it is particularly
important to create a carefully established routine for both functions. At the time of our
fieldwork, ISS was working with a contractor to revise the Landover Annex receiving and
shipping process. We evaluated these processes and determined that while ISS management has
taken steps to improve overall accountability, vulnerabilities continue to exist. This is due
primarily to the nature of the warehouse acting as an intermediate receiving depot. Its role is to
serve as a temporary holding area, similar to a post office. The mail recipient, in this case the
service unit, is responsible for making sure that it receives the materials it ordered. For this
reason, physical security measures and close monitoring by supervisors is critical.

          A.       Receiving Function

The Logistics Section effectively records and tracks the materials received at the Landover
warehouse, but the service units are the main control to ensure that the materials received match
the order. We found that Logistics has taken steps to better ensure that it promptly delivers all
materials received to the service units. The receiving routine includes checking-off on the
packing slip the items received and initialing the slip to establish accountability. Receiving staff
check boxes for damage. The policy is to refuse the entire shipment if there is any damage
detected. Staff do not open boxes delivered to the warehouse to verify the actual contents, with
the exception of CPUs,             and items above $25,000. 1 Without opening the box, it is not
possible to verify the contents. For this reason, the service units must be diligent in tracking
their orders.
1
    Logistics Section maintains an automated property control database, IBCFACS (International Bar Code Fixed
    Asset Control System) of all property valued above $25,000, plus all CPUs                . In addition to
    purchased assets, the system includes leased and rental property such as vehicles and photocopiers. Logistics
    Services attaches a bar code to these assets and inputs pertinent data into the system.



                                                          9
The Library of Congress                                                 Final Report No. 2005-AT-904
Office of the Inspector General                                                            June 2006

To increase control, the Assistant Head of Logistics now requires two staff to sign for any
computer equipment received. Some leading edge companies provide a separate receiving tally
sheet rather than using the packing slip. Companies using this method also require an
independent verification based on blind receipt; they do not tell receiving clerks the count
expected. Best industry practices also suggest that receiving employees work in pairs and check
each other’s work. In our opinion, requiring two staff to check-in the high dollar and computer
equipment provides adequate control. We do not believe that a separate tally sheet or a blind
count is needed.

Receiving staff also match the packing list to a purchase order, when possible, to ensure that they
received everything ordered. This control is not always possible if the packing slip does not
denote the purchase order number, or for credit card orders that do not have an associated
purchase card number. We observed that in most instances, the Logistics Section is able to track
down the purchaser without a purchase order number based on the type of asset received.

As discussed above, Logistics plans to begin inputting all receipts into the new Intellitrack
inventory system. To best accomplish separation of duties, the person inputting information into
the Intellitrack system should be separate from the persons performing the custodial activities
such as receiving, shipping, and storing physical assets. Separation between the duties of
recording transactions and duties of custody or approval is essential to provide for the integrity
of the inventory records. Personnel recording inventory adjustments to the on-hand balances at
leading-edge locations did not have custodial responsibilities, such as shipping, receiving, and
storing, and did not have to approve significant adjustments to the records.

Recommendation:

We recommend that the Acting Logistics Section Head:

11.     Ensure adequate separation of duties for the functions of receiving and recording the
        transactions.

Integrated Support Services Response and OIG Comments

ISS agreed with the recommendation.

        B.       Back Orders

The Logistics Section maintains a paper file of partially filled purchase orders. Some of these
open orders are more than two years old. Logistics has not contacted the service units to
reconcile its records. Without this reconciliation, there is no assurance that all ordered materials
are received. We attribute the unreliable records to two factors. First, receiving staff do not
always remember to check this file when a delivery is made. Second, a service unit may have
cancelled the back order and not notified the Logistics Section. The implementation of the
Intellitrack system should make this task simpler and allow staff to more easily monitor back
orders.




                                                 10
The Library of Congress                                                  Final Report No. 2005-AT-904
Office of the Inspector General                                                             June 2006

Recommendation:

We recommend that the Logistics Assistant Section Head:

12.     Reconcile all back orders with the service units periodically to determine if the vendor
        had completely filled the order.

Integrated Support Services Response and OIG Comments

ISS agreed with the recommendation.

        C.       Shipping Function

At the time of our fieldwork, ISS was taking action to improve the control and accountability
over the assets during shipping to the service units. One action planned is to “seal” the truck
before delivery and forward a manifest to the Madison loading dock. As long as the seal is in
tact, management has assurance that the driver did not have access to the load. Of course, if the
seal is broken or missing, ISS will question the driver and investigate missing materials, if any.
To be effective, it is vital that management strictly control access to the seals. Sealing the trucks
will provide more restricted access to the inventory items. However, Logistics staff receiving
materials at the Madison loading dock do not verify the contents of the boxes delivered. The
system relies upon the service unit to report any shortages.

The process for establishing accountability for the delivery of materials to the service units
functions properly but can be improved. The Logistics Section uses a copy of the purchase order
to record delivery to the service unit. It asks the service unit to check-off on the purchase order
the items received and initial the order to denote receipt. It stamps the copy of the purchase
order with a place for the service unit to sign to acknowledge receipt. However, we found that it
was not clear to the service units that this was the place for them to sign. This increases the
chance that the service unit will not initial the form. We also found that initials were hard to read
therefore making it difficult to establish accountability.

Recommendations:

We recommend that the Acting Logistics Section Head:

13.     Ensure that access to the truck “seals” is restricted to the Assistant Section Head and one
        alternate.

14.     Revise the stamp to indicate more clearly where the service unit should sign. The stamp
        should also require the person receiving the item to both print and sign their name to
        eliminate any doubt as to the responsible person should a problem occur.

Integrated Support Services Response and OIG Comments

ISS agreed with the recommendations.



                                                 11
The Library of Congress                                                              Final Report No. 2005-AT-904
Office of the Inspector General                                                                         June 2006

          D.       Security Issue

Packages received at the Landover warehouse and subsequently delivered to the Madison
loading dock are not subjected to metal detector testing. These materials circumvent the security
measures established for Capitol Hill since 9-11, and thereby unnecessarily place the Library
headquarters at risk.

Recommendation:

We recommend that the ISS Director:

15.       Meet with the Office of Security and Emergency Preparedness to discuss security
          procedures for deliveries to the Madison loading dock.

Integrated Support Services Response and OIG Comments

ISS agreed with the recommendation. ISS replied that “In consultation with OSEP, ISS has
included the Library in a Capitol Hill Police study to examine an off-site Logistics Transfer
Model. ISS is co-funding this study. The study will determine which categories of material
destined for Capitol Hill should be subject to off-site screening and processing.”

IV.       Greater Separation of Duties is Necessary to Ensure
          Integrity of the Computers for Learning Program

At the time of our fieldwork, the Logistics Section held a significant amount of surplused
computer equipment: 1,054 CPUs and 260 monitors. Although surplus, these assets represent
thousands of dollars in property that may be useful to charitable organizations. The Library
participates in the Federal Computers for Learning Program. 2 Effective controls are needed to
ensure this property is made available, to the greatest extent possible, to educational
organizations and other charitable groups. The Logistics Section has improved its control over
surplused materials but greater separation of duties is necessary to ensure program integrity.




2
    The Computers for Learning Program, created in 1996 by Executive Order 12999, encourages the transfer to
    schools and non-profit organizations of educationally useful Federal equipment that is surplus to the government.



                                                          12
The Library of Congress                                                 Final Report No. 2005-AT-904
Office of the Inspector General                                                            June 2006

Figure 4. The 260 surplus computer                     Figure 5. The 1,054 surplus CPUs.
monitors stored at Landover Annex.




New procedures require two staff members to witness the destruction or the donation of the
excess computers, weapons, and other assets valued over $25,000. All donations are reported on
a standard GSA Standard Form 122 “Transfer Order Excess Personal Property.” For destroyed
property, the Logistics Section prepares a “Certificate of Abandonment and Destruction” that
itemizes the quantity, an item description, bar codes (if available), and the date destroyed. It then
matches these forms with the report from the service unit requesting pick-up of the surplused
property. We observed that the service units did not have a standard form to use. Some service
units prepare an email itemizing the surplus assets while others do not prepare a listing. In these
instances, staff prepare a list upon pick-up. The list from the service unit serves as a control
document to track the material and to trace accountability.

We verified that management maintains a file of applications from the schools and non-profit
organizations. An educational non-profit is eligible to receive donations if it is classified as tax
exempt under section 501 (c) of the IRS tax code. The application requests the tax identification
number for private schools. We tested five recent donations and found four of the five
applications had the required tax identification. The fifth applicant provided a group tax
exemption number from its umbrella national church.

Warehouse staff are responsible for both processing the application form and for surplusing the
property. We believe better separation of duties is needed. The Property Control Manager (an
Inventory Specialist stationed at the Adams Building) receives copies of all these documents and
records the transfer of these assets in the IBCFACS (International Bar Code Fixed Asset Control
System). However, the Property Control Manager is not part of the approval process.

We also believe that ISS should investigate a surplus program operated by Dell Computers.
Dell’s “Asset Recovery Services” is a suite of services offered by Dell that allows you to choose
whether to recycle or resell your old or outdated computer equipment. The program removes
tags and labels from equipment and overwrites hard disks. It also eliminates the cost of storing
excess computer equipment. This could be significant given that the Logistics Section presently
is holding over 1,000 excess computers. Our interviews with the Logistics staff at the
Smithsonian indicated that they were very satisfied with the Dell program.



                                                 13
The Library of Congress                                                Final Report No. 2005-AT-904
Office of the Inspector General                                                           June 2006

Recommendations:

We recommend that the ISS Director:

16.     Develop a standard form and require the service units to complete the form before
        scheduling pickup by the Logistics Section.

17.     Assign someone not working at the Landover Annex responsibility for processing and
        approving the requests to participate in the donation program and the requests for surplus
        computer equipment.

18.     Consider the surplus program operated by Dell Computers.

Integrated Support Services Response and OIG Comments

ISS agreed with the recommendations. Regarding recommendation 18, ISS noted that “…this
program is outside of the Federal Government’s established protocol for the disposal of excess
equipment in general, as well as outside the specifically authorized federal ‘Computers for
Learning Program.’ Nonetheless this avenue is being researched by ISS at the IG’s request.”




                                                14
The Library of Congress                                                  Final Report No. 2005-AT-904
Office of the Inspector General                                                             June 2006

                                         CONCLUSIONS

Asset management is rarely considered mission critical to anyone outside of Logistics. It is also
a difficult initiative for Logistics because it is responsible for the receipt, storage, and delivery,
but does not own the assets. Although ISS recognized the vulnerability of its assets stored at
Landover prior to the theft, these assets were susceptible to employee theft due to a combination
of poor inventory controls, poor physical security, and inadequate oversight. The likelihood that
inventory losses are due to theft is much higher when inventory control weaknesses are found in
tandem with poor physical security.

No single fix will eliminate theft, but a combination of processes, hiring standards, and security
systems can combine to help reduce losses associated with internal inventory theft. To its credit,
ISS management has taken action to address control weaknesses and implement best industry
practices. The positive actions taken by ISS, if properly implemented and pursued continuously,
should bring about long-term and sustained improvements in physical inventory controls and
inventory record accuracy, as well as physical security for the warehouse. We recognize that
many of the controls we have recommended may give the appearance of not trusting staff. For
this reason, we think it is especially important for ISS to recognize staff doing good work or
making suggestions to improve efficiency and cut costs. When someone has done something
beyond the norm, recognize their efforts immediately by giving them a token of appreciation.



Major Contributors to This Report:

                 Anita Scala, Assistant Inspector General for IT and Security Audits
                 Patrick J. Cunningham, Senior Auditor
                 Cornelia E. Jones, Auditor




                                                  15
The Library of Congress                                                Final Report No. 2005-AT-904
Office of the Inspector General                                                           June 2006


                                                                                 APPENDIX A

                                   List of Recommendations

1.      Provide clear guidance to the Logistics Section staff that falsified reporting will not be
        tolerated and that if found, the strongest disciplinary actions would be taken.
2.      Limit access to the Intellitrack system to the extent possible by separating duties.
3.      Assign the Assistant Head of Logistics or a designated alternate responsibility for
        performing inventory adjustments.
4.      Perform quarterly unannounced counts of the contents of the vault and compare it with
        control records.
5.      Periodically ask the service units what their records indicate is stored at the warehouse
        (computer equipment                         and verify this information by an unannounced
        physical inventory.
6.      Establish more outcome performance measures, establish a benchmark, and compare its
        performance with other similarly sized agencies.
7.      Post a check sheet at several strategic points in the warehouse. The contract guard should
        initial and post the date and time for each inspection.
8.      Consider the additional cost of assigning inspection duties to the guards at the main door.
9.      Consider the feasibility of conducting random inspections of vehicles. This will require
        negotiations with the union.
10.     Place the Logistics staff sign-in/out register at the Landover Annex front door.
11.     Ensure adequate separation of duties for the functions of receiving and recording the
        transactions.
12.     Reconcile all back orders with the service units periodically to determine if the vendor
        had completely filled the order.
13.     Ensure that access to the truck “seals” is restricted to the Assistant Section Head and one
        alternate.
14.     Revise the stamp to indicate more clearly where the service unit should sign. The stamp
        should also require the person receiving the item to both print and sign their name to
        eliminate any doubt as to the responsible person should a problem occur.
15.     Meet with the Office of Security and Emergency Preparedness to discuss security
        procedures for deliveries to the Madison loading dock.
16.     Develop a standard form and require the service units to complete the form before
        scheduling pickup by the Logistics Section.
17.     Assign someone not working at the Landover Annex responsibility for processing and
        approving the requests to participate in the donation program and the requests for surplus
        computer equipment.
18.     Consider the surplus program operated by Dell Computers.




                                                16
The Library of Congress                Final Report No. 2005-AT-904
Office of the Inspector General                           June 2006

                                                   APPENDIX B
                                                     (Page 1 of 11)




                                  17
The Library of Congress                Final Report No. 2005-AT-904
Office of the Inspector General                           June 2006

                                                   APPENDIX B
                                                     (Page 2 of 11)




                                  18
The Library of Congress                Final Report No. 2005-AT-904
Office of the Inspector General                           June 2006

                                                   APPENDIX B
                                                     (Page 3 of 11)




                                  19
The Library of Congress                Final Report No. 2005-AT-904
Office of the Inspector General                           June 2006

                                                   APPENDIX B
                                                     (Page 4 of 11)




                                  20
The Library of Congress                Final Report No. 2005-AT-904
Office of the Inspector General                           June 2006

                                                   APPENDIX B
                                                     (Page 5 of 11)




                                  21
The Library of Congress                                                              Final Report No. 2005-AT-904
Office of the Inspector General                                                                         June 2006

                                                                                                   APPENDIX B
                                                                                                     (Page 6 of 11)
   4. Perform quarterly unannounced counts of the contents of the vault and compare it with control
   records.
   ISS Response: Agree
          The ISS Director will establish a team of professional staff to conduct an unannounced quarterly
   independent inventory count of the vault contents and compare it with the control records. This
   responsibility is being noted in the Logistics annual Management Plan, and Logistics will report on actions
   taken and results in their quarterly reports to the Director.

   5. Periodically ask the service units what their records indicate is stored at the warehouse (computer
   equipment                   ) and verify this information by an unannounced physical inventory.
   ISS Response: Agree
           The Assistant Head of Logistics will periodically ask ITS (for computer equipment) and the Office
   of Security and Emergency Preparedness                   to confirm their records of inventory stored in the
   warehouse; this manager will verify this data by an unannounced physical inventory of the material. This
   process will be much more efficient after all computer equipment                are migrated into the
   automated warehouse management system.

   6. Establish more outcome performance measures, establish a benchmark, and compare its
   performance with other similarly sized agencies.
   ISS Response: Agree
           ISS management has already assigned all ISS Managers, including the Acting Head of
   Logistics, to identify, track, and report on meaningful and appropriate performance measures for major ISS
   functional responsibilities including Logistics. There are currently over sixteen measurable performance
   metrics reported quarterly to the Director, compared to none three years ago. As different areas of
   performance emphasis are identified, these metrics will continue to evolve. In addition, responsibility for
   benchmarking ISS costs and performance measures of specific support services (including key Logistics
   functions) and comparing these with other federal agencies deemed best in government, or with the best in
   private industry, has been included in a revised position description for the currently vacant ISS position of
   "Project Management Coordinator (GS-301-14)."

   7. Post a check sheet at several strategic points in the warehouse. The contract guard should initial
   and post the data and time for each inspection.
   8. Consider the additional cost of assigning inspection duties to the guards at the main door.
   9. Consider the feasibility of conducting random inspections of vehicles. This will require negotiations
   with the union.
   Note: This contract is a responsibility of the Office of Security and Emergency Preparedness.
   10. We recommend that the Acting Logistics Section Head place a sign-in/out register at the Landover
   Annex front door.
   ISS Response: Disagree
           It is not the responsibility of Logistics to account for staff signing in or out at the Landover Center
   Annex front door. Many LOC staff members at Landover are not Logistics staff members. Since this a
   security and accountability issue relating to the whole facility, ISS believes that this should be a
   responsibility of OSEP, not Logistics.


                                                 Page 2 of 4




                                                       22
The Library of Congress                Final Report No. 2005-AT-904
Office of the Inspector General                           June 2006

                                                   APPENDIX B
                                                     (Page 7 of 11)




                                  23
The Library of Congress                Final Report No. 2005-AT-904
Office of the Inspector General                           June 2006

                                                   APPENDIX B
                                                     (Page 8 of 11)




                                  24
The Library of Congress                Final Report No. 2005-AT-904
Office of the Inspector General                           June 2006

                                                   APPENDIX B
                                                     (Page 9 of 11)




                                  25
The Library of Congress                Final Report No. 2005-AT-904
Office of the Inspector General                           June 2006

                                                   APPENDIX B
                                                    (Page 10 of 11)




                                  26
The Library of Congress                Final Report No. 2005-AT-904
Office of the Inspector General                           June 2006

                                                   APPENDIX B
                                                    (Page 11 of 11)




                                  27
The Library of Congress                Final Report No. 2005-AT-904
Office of the Inspector General                           June 2006

                                                   APPENDIX C
                                                      (Page 1 of 2)




                                  28
The Library of Congress                Final Report No. 2005-AT-904
Office of the Inspector General                           June 2006

                                                   APPENDIX C
                                                      (Page 2 of 2)




                                  29
